Annual Report, “Federal Information Security Management Act: Fiscal Year 2004 Report
from the Office of Inspector General” (IG-05-001, October 4, 2004)

This annual report, submitted from the Inspector General to the NASA Administrator,
provides the Office of Management and Budget (OMB) with our independent assessment
of NASA’s information technology (IT) security posture. Our report summarizes work
we performed during FY 2004 in IT security, which included the identification of
weaknesses and the recommendation that NASA identify IT security as a material
weakness reportable in accordance with the Federal Managers Financial Integrity Act.

The OMB’s Federal Information Security Management Act (FISMA) Report to Congress
for FY 2004 includes information provided by our report. Our report contains NASA
Information Technology/Internal Systems Data that is not routinely released under the
Freedom of Information Act (FOIA). To submit a FOIA request, see the online guide.
